CERTIFICATE OF WORD COUNT
NO. TBD
Advantageous Community Services, LLC, Arminder Kaur, Haraspal Singh, and Harchi Singh,
Petitioners,
v.
Gary King, Amy Landau, Elizabeth Staley, Marc Workman,
Cathy Stevenson, Orlando Sanchez, and Walter Rodas,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the ADVANTAGEOUS
COMMUNITY SERVICES, LLC, ET AL. PETITION FOR WRIT OF CERTIORARI contains 6927 words,
including the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
April 28, 2021

SCP Tracking: Sanders-820 2nd Street N.W.-Cover White

